   April 17, 2006




Human Capital
Report on the DoD Acquisition
Workforce Count
(D-2006-073)




             Department of Defense
            Office of Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
COR                   Contracting Officer’s Representative
DACM                  Director Acquisition Career Management
DCC-W                 Defense Contracting Command-Washington
DLA                   Defense Logistics Agency
DMDC                  Defense Manpower Data Center
DoD IG                Department of Defense Inspector General
GAO                   Government Accountability Office
IGCE                  Independent Government Cost Estimate
USD(AT&L)             Under Secretary of Defense for Acquisition, Technology, and
                         Logistics
                             INSPE-CT0.RGENERAL
                            DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704


                                                                           April 17,2006

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               UNDER SECRETARY OF DEFENSE FOR PERSONNEL
                 AND READINESS
               AUDITOR GENERAL, U.S. ARMY AUDIT AGENCY
SUBJECT: Report on the DoD Acquisition Workforce Count
         (Report No. D-2006-073)

        We are providing this report for review and comment. We received comments on
a draft of this report from the Director, Human Capital Initiatives, Office of the Under
Secretary of Defense for Acquisition, Technology, and Logistics; the Director, Army
Contracting Agency; the Director, Defense Manpower Data Center; and the Military
Deputy, Office of the Assistant Secretary of the Air Force (Acquisition). We considered
the management comments when preparing the final report.
       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
Defense Management Data Center comments to Recommendation A.2. were partially
responsive. As a result of management comments from the office of the Under Secretary
of Defense for Acquisition, Technology, and Logistics, we renumbered draft report
Recommendation A. 1.b(2) as final report Recommendation A.3., and redirected it to the
Under Secretary of Defense for Personnel and Readiness to respond in coordination with
the Office of the Under Secretary of Defense for Acquisition Technology and Logistics.
We request Defense Management Data Center comments on Recommendation A.2. and
Under Secretary of Defense (Personnel and Readiness) comments on
Recommendation A.3. by June I, 2006.
        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Audcm@dodia.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET). We appreciate the courtesies extended to the staff. Questions should be
directed to Ms. Kimberley A. Caprio at (703) 604-9202 (DSN 664-9202) or
Mr. Benjamin A. Mehlman at (703) 604-9291 (DSN 664-9291). See Appendix E for the
report distribution. The team members are listed inside the back cover.
       By direction of the Deputy Inspector General for Auditing:




                                     Assistant Inspector General
                                 Acquisition and Contract Management
               Department of Defense Office of Inspector General
Report No. D-2006-073                                                     April 17, 2006
  (Project No. D2005-D000CB-0181)

                       DoD Acquisition Workforce Count

                                Executive Summary

Who Should Read This Report and Why? Service acquisition executives, program
managers, DoD contracting officials, and personnel with interest in the DoD acquisition
workforce should read this report. This report addresses the DoD acquisition workforce
count and congressional reporting as well as related contract administration and
surveillance.

Background. The DoD acquisition workforce is subject to two methods of counting and
congressional reporting. The first method, known as the “Acquisition Organization”
workforce counting approach, was used by the 1986 President’s Blue Ribbon
Commission on Defense Management (the Packard Commission) and counts all
personnel employed in 22 designated DoD acquisition organizations as part of the
acquisition workforce, regardless of an employee’s occupation. As of September 30,
2004, there were 206,653 civilian and military personnel included in the 22 designated
DoD acquisition organizations. The second acquisition workforce counting method is
known as the “Refined Packard” approach. In May 1997, the Office of the Under
Secretary of Defense for Acquisition, Technology, and Logistics contracted with
Jefferson Solutions, a division of Jefferson Consulting Group, to review alternative ways
of identifying the acquisition workforce. In September 1997, Jefferson Solutions
reported to the Office of the Under Secretary a proposed Refined Packard acquisition
workforce methodology of combining occupational and organizational data for
identifying those in the workforce. In a December 18, 1997, letter, the Secretary of
Defense forwarded the Jefferson Solutions report to Congress and stated that, beginning
October 1, 1998, members of the acquisition workforce would be uniformly identified
using the Refined Packard model. While accepting the new approach, the House Armed
Services Committee requested that DoD continue to report the Acquisition Organization
workforce count in conjunction with the Refined Packard count.

As of September 30, 2004, there were 134,602 civilian and military personnel included in
the DoD Refined Packard count. Of the 134,602 personnel in the Refined Packard
workforce count, 69 percent (92,588) were assigned and included in the DoD Acquisition
Organization count, while 31 percent (42,014) of the DoD Refined Packard workforce
were assigned outside the 22 major DoD acquisition organizations. The Refined Packard
model removed 55 percent (114,065) of the 206,653 personnel included in the
Acquisition Organization count because those personnel perform non-acquisition support
functions, such as firefighting, police, human resources, administration, accounting,
legal, engineering technicians, supply, transportation, and trades (such as equipment and
facilities operations and maintenance).

Results. DoD annually reports to Congress a count of its acquisition workforce as
compiled by the Defense Manpower Data Center through application of the Refined
Packard method. The FY 2004 and prior Refined Packard workforce counts were
unverifiable. As a result, DoD acquisition workforce planning risks, including for the
Quadrennial Defense Review, could increase because annual Refined Packard workforce
support and expenditures may be based on unreliable data and may not accurately reflect
the true DoD acquisition workforce (finding A). Defense Manpower Data Center
management controls for the acquisition workforce counting process were not adequate
to ensure the count reflects the true DoD acquisition workforce. Implementing our
recommendations will improve Defense Manpower Data Center acquisition workforce
counting procedures.

The Defense Contracting Command-Washington did not properly negotiate or administer
support service contract DASW01-03-F-0393 with Jefferson Solutions. In addition, the
contracting officer representative approved Jefferson Solutions monthly invoices without
requesting written support of services performed, hours expended, or products provided.
As a result, the Government is not assured that fair and reasonable prices were negotiated
with Jefferson Solutions, nor that work performed by Jefferson Solutions in identifying
and reporting the Refined Packard workforce was done properly for the time and
materials expended or that Government resources were used economically (finding B).

Recommendations. We recommend that the Director, Defense Procurement and
Acquisition Policy develop and implement written standard operating procedures and
guidance for defining and counting the acquisition workforce, methodologies used to
perform periodic workforce counts, and requirements to maintain and support acquisition
workforce count documentation; and revise DoD Instruction 5000.55 to ensure consistent
acquisition workforce information format and reporting from the DoD Components. We
also recommend that the Under Secretary of Defense for Personnel and Readiness in
coordination with the Under Secretary of Defense for Acquisition, Technology, and
Logistics revise the instruction to estimate contractor equivalents that support the DoD
acquisition workforce, and include such estimates as supplementary annual DoD
acquisition workforce reporting data to Congress. We recommend the Director, Defense
Manpower Data Center develop a knowledge management program to maintain corporate
knowledge of Defense Manpower Data Center information systems and processes. We
recommend that the Commander, Defense Contracting Command-Washington ensure
that acquisition workforce count contracts supporting Office of the Under Secretary of
Defense for Acquisition, Technology, and Logistics components require written
contractor monthly progress reports.

Management Comments and Audit Response. Management concurred with
recommendations to develop and implement written standard operating procedures and
guidance for defining and counting the acquisition workforce, methodologies used to
perform periodic workforce counts, and requirements for acquisition workforce count
documentation; and to revise DoD Instruction 5000.55 to ensure consistent acquisition
workforce information format and reporting from the DoD Components. Management
also concurred with the recommendation to ensure that acquisition workforce count
contracts supporting the Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics components require written contractor monthly progress
reports. We request by June 1, 2006, the Under Secretary of Defense for Personnel and
Readiness comment regarding the redirected recommendation to revise DoD
Instruction 5000.55 to estimate contractor equivalents that support the DoD acquisition
workforce, and that the Director, Defense Manpower Data Center provide additional
comments regarding the recommendation to develop a knowledge management program
to maintain corporate knowledge of Defense Manpower Data Center information systems
and processes.


                                            ii
Table of Contents

Executive Summary                                                             i

Background                                                                    1

Objectives                                                                    4

Managers’ Internal Control Program                                            4

Findings
     A. DoD Acquisition Workforce Database and Counting Controls             6
     B. Contracted Support Services for the Acquisition, Technology, and
         Logistics Workforce                                                 17

Appendixes
     A. Scope and Methodology                                                23
     B. Prior Coverage                                                       24
     C. DoD Acquisition Organizations List                                   25
     D. Military Services and Defense Logistics Agency Acquisition
          Workforce Counting Processes                                       27
     E. Report Distribution                                                  31

Management Comments
     Under Secretary of Defense for Acquisition, Technology, and Logistics   33
     Department of the Army                                                  36
     Defense Manpower Data Center                                            37
     Department of the Air Force                                             38
Background
    During the last 15 years, DoD has experienced significant challenges and expectations
    regarding its acquisition workforce due to declining number of workers, while the
    workload and the demand for technical expertise and skill sets are increasing. The
    National Defense Authorization Act for Fiscal Year 1996, section 906 (Public
    Law 104-106) implements a plan to restructure the DoD acquisition organization by
    reducing the number of civilian and military personnel employed or assigned to
    acquisition organizations by 25 percent over a 5-year period and to eliminate duplication
    of functions among existing acquisition organizations. However, from FY 1999 through
    FY 2004, the total DoD procurement dollars increased 78 percent (from $135 billion to
    $241 billion) and total DoD procurement actions increased 14 percent (from 5.8 million
    to 6.6 million).

    Strategic Planning for the DoD Acquisition Workforce. On September 27, 2005, the
    Under Secretary for Defense for Acquisition, Technology, and Logistics (USD[AT&L])
    stated in testimony to the Senate Committee on Armed Services that his office initiated a
    comprehensive review of the acquisition workforce. It will have a DoD acquisition
    workforce strategic plan in place no later than 120 days after the completion of the
    Quadrennial Defense Review. The USD(AT&L) stated that the strategic plan would
    incorporate the National Security Personnel System and would be aligned with
    Quadrennial Defense Review results and analysis of the current acquisition workforce
    and evolving workload requirements, such as service contracts and contingency
    operations. The USD(AT&L) noted that a thoughtful acquisition workforce strategic
    plan would define processes and tools to assess workforce capability and to tactically
    recruit, develop, and retain the right talent, with emphasis on smart execution and
    implementation.

    The USD(AT&L) noted that the DoD acquisition workforce has had to contend from
    FY 1998 through FY 2004 with a 105 percent increase in constant DoD contracting
    dollars and a 58 percent increase in contracting actions over $100,000, which are often
    the most complex. The USD(AT&L) noted that the average age of the DoD civilian
    workforce is 46.7 years old and the number of workforce members with 30 or more years
    of experience continues to increase. Therefore, DoD will face losing a significant
    amount of acquisition workforce knowledge, experience, and capability. The
    USD(AT&L) also expressed concern about an impending talent gap created by a 10-year
    acquisition workforce drawdown, but noted that DoD has taken measures to alleviate the
    talent gap through Defense Acquisition University development of increased on-line and
    on-site acquisition training and the establishment of a Web-based acquisition Community
    of Practice system.

    Defense Acquisition Workforce Improvement Act. The 1990 Defense Acquisition
    Workforce Improvement Act (section 1701-1764, title 10, United States Code) (the Act).
    The Act was enacted to improve the effectiveness of the civilian and military acquisition
    workforce through enhanced education, training, and career development, and thereby
    improve the acquisition process. The Act requires DoD to establish formal career paths
    for those people who want to pursue careers in acquisition. DoD has accomplished this
    by dividing acquisition positions into 11 categories and establishing a formal certification
    process. The Act requires each of the Military Services to designate a Director,
    Acquisition Career Management (DACM) to oversee implementation of the Act’s


                                             1
requirements. The Defense Acquisition University is required to designate a “Fourth
Estate” DACM to oversee implementation of the Act’s requirements at Defense agencies
and DoD field activities.

Acquisition Workforce Counting Methods. Acquisition workforce counts support
DoD acquisition workforce planning and estimating expenditures for workforce training
and development, as well as annual congressional reporting. The Senate and House
Armed Services Committees used two formats to count the DoD acquisition workforce.
The first method, known as the “Acquisition Organization” workforce counting
approach, counts all personnel employed in 22 designated DoD acquisition organizations
as part of the acquisition workforce, regardless of an employee’s occupation. See
Appendix C for a list of the 22 acquisition organizations. The second method is known
as the “Refined Packard,” or the “Acquisition, Technology, and Logistics” workforce
counting approach, which combines occupational and organizational data for identifying
employees in the acquisition workforce.

Workforce Counting Process. The Office of the USD(AT&L) has designated the
Defense Manpower Data Center (DMDC) as the lead office for conducting annual
acquisition workforce counts. A May 13, 1999, USD(AT&L) policy memorandum,
“Refined Packard Key Acquisition and Technology Workforce Identification Policy for
the Fiscal Year 1999,” designates the DMDC as the official database for the acquisition
workforce personnel counts. The Military Services and the Defense agencies submit
quarterly acquisition workforce count data to DMDC. The data are stored in a DMDC
data repository. DMDC reviews, revises, and augments the data submissions by breaking
out the submission by pay grades, certifications, and civilian and military components.
For the Refined Packard count, DMDC is assisted by the AT&L contractor Jefferson
Consulting Group (Jefferson Solutions), which creates an annual Refined Packard
acquisition workforce count report. DMDC also creates an annual Acquisition
Organization workforce count report. A USD(AT&L) component, the Office of the
Director, Defense Procurement and Policy, exercises oversight over the workforce
counting process.

Military Services and Defense Logistics Agency Acquisition Workforce Counting
Processes. Guidance and processes used by the Military Services and the Defense
Logistics Agency (DLA) to count and report the acquisition workforce vary greatly. All
three services code their acquisition positions in individual Military Service personnel
management information systems. Army acquisition positions are coded by the Office of
the Director Acquisition Career Management (DACM), while the Navy and Air Force
major commands code their acquisition positions. The coding creates the databases that
serve as the basis for both the Acquisition Organization and the Refined Packard counts.
The Military Services DACM staffs are responsible for the acquisition workforce count
submitted to DMDC. DMDC makes an assessment of the acquisition workforce count
and sends results back to the Army, Navy, and Air Force DACM staffs for review and
correction. Individual Military Service DACM staffs send corrections back to DMDC,
and DMDC submits the corrected totals for the inclusion to the Military Services Refined
Packard count.

The DLA Customer Support Office in Columbus, Ohio, submits quarterly DLA
Acquisition Workforce count data directly to DMDC. The Customer Support Office
produces quarterly Acquisition Workforce counts through extraction of DLA Acquisition
Personnel File records from the Defense Civilian Personnel Data System and use of DLA


                                       2
Acquisition Position Files. DMDC performs a match between the Acquisition Personnel
File records and Acquisition Position File records; the results of that match become the
DLA Refined Packard count. See Appendix D for a detailed explanation of the Military
Services and DLA acquisition workforce counting processes, criteria, and counting
systems.

Acquisition, Technology, and Logistics Policy Memorandums. The Office of the
USD(AT&L) has issued several policy memorandums regarding conduct of annual
acquisition workforce counts. An April 6, 2001, USD(AT&L) policy memorandum on
“Assimilation of Newly Identified Personnel into the Acquisition and Technology
Workforce” describes a process of coding designated acquisition and technology
positions and personnel by position category career field into the Defense Civilian
Personnel Data System and comparable military personnel systems. Subsequently, a
November 21, 2003, policy memorandum on “Moratorium on Designated People and
Positions as Part of the Defense Acquisition, Technology, and Logistics (AT&L)
Workforce” imposes a plus or minus 1 percent change restriction on the number of
Defense acquisition and support personnel to implement requirements of the FY 2004
National Defense Authorization Act. A November 9, 2005, policy memorandum on
“Lifting of the Moratorium on Designating People and Positions as Part of the Defense
Acquisition, Technology, and Logistics (AT&L) Workforce” rescinds the November 21,
2003, memorandum, and allows DoD components to resume designation of new
positions that perform acquisition functions.

DoD Instruction 5000.55, “Reporting Management Information on DoD Military
and Civilian Acquisition Personnel and Position,” November 1, 1991. DoD
Instruction 5000.55 outlines the acquisition workforce personnel data submission
requirements for both civilian and military personnel. The instruction establishes a
management information system capable of providing standardized information on
acquisition positions and on persons serving in acquisition positions. In addition, the
instruction attempts to create a DoD-wide capability for monitoring, reporting, and
tracking the composition, education, experience, and training status of the acquisition
workforce and to establish uniform procedures for submitting manpower, personnel, and
assignment information on selected DoD acquisition workforce civilian and military
personnel. The instruction also establishes procedures for reporting functional and
training-related data on selected DoD civilian and military personnel to evaluate the
mandatory training requirements and status of the acquisition workforce. DoD
Instruction 5000.55 designates DMDC as custodian of all automated records collected
under the instruction and to provide data quality control, inquiry capabilities, and
administrative and computer support. The instruction also requires DACMs to maintain
documentation on the identification of DoD civilian and military acquisition positions.

DoD Directive 5000.52, “Defense Acquisition, Technology, and Logistics Workforce
Education, Training, and Career Development Program,” January 12, 2005. The
revised Directive updates policies and responsibilities for an education, training, and
career development program for the acquisition workforce and establishes a single
Acquisition Corps throughout DoD. This includes defining the responsibilities of the
Offices of the Under Secretaries of Defense for Acquisition, Technology, and Logistics;
Personnel and Readiness; Comptroller; and Intelligence; and for DoD Component
Heads. The directive implements chapter 87 of title 10, United States Code on Defense
Acquisition Workforce information systems, career development programs, and methods
of identifying Refined Packard workforce positions.


                                        3
    DoD Instruction 5000.66, “Operation of the Defense Acquisition, Technology, and
    Logistics Workforce Education, Training, and Career Development Program,”
    December 21, 2005. The instruction implements DoD Directive 5000.52 and provides
    uniform guidance for managing acquisition workforce positions and career development.
    The instruction designates and identifies workforce positions; the attainment and
    maintenance of competencies through education, training, and experience; management
    of the Defense Acquisition Corps; selection and placement of personnel in acquisition
    positions; and workforce metrics. The instruction states that the USD(AT&L) will
    determine uniform policies and procedures for the acquisition workforce education,
    training, and career development programs and implement DoD issuances including a
    Desk Guide for workforce career management. On January 10, 2006, the Defense
    Acquisition University issued “A Desk Guide for Acquisition, Technology, and Logistics
    Workforce Career Management” (Desk Guide) to provide more detailed program
    guidance. The Desk Guide states that all acquisition workforce positions fall in 1 of the
    15 categories and that positions can include part-time, temporary, and full-time
    Government civilian and military personnel.


Objectives
    The overall audit objective was to review the effectiveness of the DoD acquisition
    workforce. The specific objective was to review the impact on the DoD acquisition
    workforce of changes in workload requirements, contracting methods, and mandated
    workforce reductions. For purposes of this report, we address how effectively DoD
    identified personnel included in the acquisition workforce. The review of the
    management control program at major acquisition organizations as it relates to the
    acquisition workforce was also an announced objective.


Managers’ Internal Control Program
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996, and
    DoD Instruction 5010.40, “Management Control (MC) Program Procedures,” August 28,
    1996, require DoD organizations to implement a comprehensive system of management
    controls that provides reasonable assurance that programs are operating as intended and
    to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of DMDC management controls over the acquisition workforce counting
    process. Specifically, we reviewed DMDC management controls over annual acquisition
    workforce count standard operating procedures, including documented analysis or
    reconciliations of quarterly Military Service and Defense agency workforce count
    submissions. We reviewed management’s self-evaluation applicable to those controls.

    We also reviewed the adequacy of Army, Navy, Air Force, and DLA management
    controls over the acquisition workforce counting process. Specifically, we reviewed
    management controls over their operating procedures and methodology. Because we did
    not identify a material weakness, we did not assess management’s self-evaluation.



                                            4
Adequacy of Management Controls. We identified a material management control
weakness for DMDC as defined by DoD Instruction 5010.40. DMDC management
controls for the acquisition workforce counting process were not adequate to ensure the
count reflects the true DoD acquisition workforce. Implementing recommendations A.1.
and A.2. will improve DMDC acquisition workforce counting procedures. A copy of the
report will be provided to the senior official responsible for management controls in the
Office of the Under Secretary of Defense for Personnel and Readiness.

Army, Navy, Air Force, and DLA management controls over the acquisition workforce
counting process were adequate as they applied to the audit objective.

Adequacy of Management’s Self-Evaluation. DMDC did not identify the acquisition
workforce counting process as an assessable unit; therefore, DMDC did not identify or
report the material management control weakness identified by the audit.




                                        5
                   A. DoD Acquisition Workforce Database and
                      Counting Controls
                   DoD annually reports to Congress the Refined Packard workforce count as
                   compiled by the DMDC. The FY 20041 and prior Refined Packard workforce
                   counts were unverifiable. The counts were unverifiable because:

                           •    DMDC lacked standard operating procedures and corporate
                                knowledge of past Refined Packard workforce counts, events, and
                                requirements;

                           •    neither DMDC, nor a DoD contractor supporting the count, maintained
                                analyses or performed reconciliations of quarterly Military Service and
                                Defense agency workforce counts used to create the annual Refined
                                Packard workforce count;

                           •    two DMDC acquisition workforce Management Information Systems
                                were only partially operational.

                   In addition the Refined Packard and Acquisition Organization counts did not
                   include and did not report contract equivalents; and DoD acquisition workforce
                   planning risks, including risks for the Quadrennial Defense Review, could
                   increase because annual Refined Packard workforce support and expenditures
                   may be based on unreliable data and may not accurately reflect the true DoD
                   civilian, military, and contracted acquisition workforce.


DoD Acquisition Workforce
           The DoD acquisition workforce is subject to two methods of counting and congressional
           reporting. The first method is known as the “Acquisition Organization” workforce
           counting approach. The second method is known as the “Refined Packard,” or the
           “Acquisition, Technology, and Logistics,” workforce counting approach. Both methods
           continue to be used as both are requested by congressional oversight committees on an ad
           hoc basis. The audit did not determine the extent of support for workforce counts made
           through the Acquisition Organization method as those counts were derived directly from
           DoD civilian and military personnel databases.

           Acquisition Workforce Count. The Acquisition Organization workforce counting
           approach was used by the 1986 President’s Blue Ribbon Commission on Defense
           Management (Packard Commission). The approach counted all personnel employed in
           22 designated DoD acquisition organizations as part of the acquisition workforce,
           regardless of an employee’s occupation. As of September 30, 2004, there were 206,653
           civilians and military personnel included the 22 designated DoD acquisition
           organizations. The total DoD Acquisition Organization workforce count since FY 1999
           is shown in Table 1.

1
    FY 2004 Refined Packard count as of September 30, 2004, reported in March 2005.



                                                        6
                      Table 1. DoD Acquisition Organization Workforce
                          (Excluding Maintenance Depot Civilians)

    Fiscal Year      1999       2000             2001           2002         2003      2004
    Workforce       230,556    219,419          215,090        212,482      213,670   206,653

   DoD does not count DoD civilians assigned to maintenance depots in the Acquisition
   Organization workforce count. AT&L personnel stated that the House Armed Services
   Committee requested that DoD report acquisition workforce levels to the committee
   using the Acquisition Organization format. Of the 206,653 acquisition organization
   personnel counted for FY 2004, 55 percent (114,065) were non-acquisition personnel
   performing support functions, such as firefighting, police, human resources,
   administration, accounting, legal, engineering technicians, supply, transportation, and
   trades (such as equipment and facilities operations and maintenance). The remaining
   45 percent (92,588) were performing designated acquisition workforce missions and are
   included in the DoD Refined Packard workforce count as shown in the Figure below.



             Acquisition Organization
               Workforce (Excludes
           Maintenance Depot Workforce)
                  Total: 206,653

                                           Personnel Performing
                                          Acquisition Functions at
                                          Acquisition Organizations
                                               Total: 92,588




                  114,065                      92,588                        42,014




                                                        Refined Packard Workforce
                                                              Total: 134,602




Acquisition Organization and Refined Packard Workforce as of September 30, 2004




                                               7
           Refined Packard Workforce Count. In May 1997, the Office of the USD(AT&L)
           contracted with Jefferson Solutions to review alternative ways of identifying the
           acquisition workforce instead of using the Acquisition Organization workforce counting
           method. This effort was in response to congressional criticism that DoD lacked a
           consistent, Defense-wide approach for determining both the size of the acquisition
           workforce and the skill sets of those serving in it. In September 1997, Jefferson
           Solutions reported to AT&L a proposed Refined Packard acquisition workforce
           methodology of combining occupational and organizational data for identifying those in
           the workforce. In a December 18, 1997, letter, the Secretary of Defense forwarded the
           Jefferson Solutions report to Congress and stated that, beginning October 1, 1998,
           members of the acquisition workforce would be uniformly identified using the Refined
           Packard model.2 While accepting the new approach, the House Armed Services
           Committee requested that DoD continue to report both the Acquisition Organization
           workforce count and the Refined Packard workforce count. The Senate Armed Services
           Committee relies on the Refined Packard method.

           Refined Packard Model. The Refined Packard model uses occupations and
           organizations for determining whether an individual will be counted as part of the
           workforce under three categories. The model can be briefly stated as follows:

                   •    Civilians in Category I occupations (such as contracting) are assumed to be
                        performing acquisition functions regardless of the organization in which they
                        serve. Therefore, all of these individuals across DoD are included in the
                        acquisition workforce.

                   •    Civilians in Category II occupations are counted only when serving in
                        organizations that primarily perform acquisition missions, such as the materiel
                        commands or technology missions, and research labs. Category II
                        occupations cover such job series such as electronics engineering, budget
                        analysis, and computer engineering.

                   •    Military or civilian personnel in Category III occupations can be added to the
                        count or removed from the count, at the discretion of the Military Services
                        and Defense agencies. For example, military enlisted personnel performing
                        key acquisition functions can be added using this capability.

                   •    Military officers subject to the Defense Acquisition Workforce Improvement
                        Act are counted as part of the acquisition workforce.

           As of September 30, 2004, there were 134,602 civilian and military personnel included in
           the Refined Packard workforce count. Of the 134,602 personnel, 69 percent (92,588)
           was assigned and included in the DoD Acquisition Organization workforce count, while
           31 percent (42,014) of the Refined Packard workforce count was assigned outside the
           22 major DoD acquisition organizations. This total compares with a September 30, 2003,
           count of 134,431. The comparable Refined Packard workforce counts totaled 132,593
           for FY 2002; 129,249 for FY 2001; 135,014 for FY 2000; and 138,851 for FY 1999. The



2
    DoD refers to the acquisition workforce count produced by the “Refined Packard” model as the “Acquisition,
    Technology, and Logistics” count.



                                                          8
           total acquisition personnel for the Military Services and Fourth Estate3 from FY 1999
           through FY 2004 are shown in Table 2.

               Table 2. Refined Packard Workforce Counts From FY 1999 through FY 2004
            Fiscal         Army                Navy             Air Force        Fourth Estate         Totals
            Year
            1999          39,592              47,895             29,258              22,106           138,851
            2000          40,080              41,373             28,959              24,602           135,014
            2001          41,074              37,158             27,820              23,197           129,249
            2002          41,783              39,661             28,444              22,705           132,593
            2003          47,697              41,622             27,888              17,224           134,431
            2004          48,251              41,552             27,775              17,024           134,602


           As shown in Table 3, the Refined Packard count has remained substantially less than the
           corresponding fiscal years’ Acquisition Organization workforce count.

             Table 3. Acquisition Organization and Refined Packard Workforce Counts From
                                       FY 1999 through FY 2004
            Fiscal Year     1999       2000        2001       2002      2003       2004
            Acquisition
            Organizatio   230,556     219,419     215,090    212,482  213,670    206,653
            n
            Refined
                          138,851     135,014     129,249    132,593  134,431    134,602
            Packard



Verification of Acquisition Workforce Count
           The Refined Packard workforce count for FY 2004 was unverifiable for the following
           reasons. DMDC lacked standard operating procedures and corporate knowledge of past
           Refined Packard workforce counts, events, and requirements. Neither DMDC nor the
           DoD support contractor, Jefferson Solutions, maintained analyses or performed count
           reconciliations. Neither the Refined Packard workforce count nor the Acquisition
           Organization workforce count included reported contract equivalents. Two DMDC
           acquisition workforce Management Information Systems were only partially operational.

           Annual Workforce Count Procedures and Corporate Knowledge. DMDC lacked
           standard operating procedures and corporate knowledge of past Refined Packard
           workforce counts, events, and requirements. DMDC lacked processes and written
           procedures for compiling and reporting the annual DoD-wide count of the acquisition

3
    Fourth Estate is composed of the acquisition workforce for the Defense Contract Management Agency, Defense
    Logistics Agency, Defense Information Systems Agency, Missile Defense Agency, Defense Contract Audit
    Agency, and other DoD agencies and field activities.



                                                         9
           workforce. Although DMDC and Jefferson Solutions performed analyses of workforce
           data provided by the Military Services and the Defense agencies, no files or records were
           maintained by DMDC, Jefferson Solutions, or the Military Services to document the
           scope of FY 2004 or prior year reviews of Military Service or Defense agency Refined
           Packard submissions. DMDC management stated they were not required to maintain
           standard operating procedures or written documentation for compiling and reporting the
           DoD acquisition workforce count.

           DMDC also lacked any personnel with corporate knowledge of how Refined Packard
           workforce counts were conducted and reported prior to FY 2004. While Jefferson
           Solutions personnel maintained corporate knowledge of Refined Packard counting
           methodology, Jefferson Solutions did not document or maintain standard operating
           procedures of past Refined Packard workforce counts, events, and requirements. All key
           DMDC personnel involved in the workforce counting process either retired or left the
           agency from 1997 through 2003, effectively leaving new staff for 2004. DMDC did not
           maintain a knowledge management program4 to allow replacement personnel to gain
           experience or background on the program.

           Analysis of Workforce Counts. Neither DMDC nor Jefferson Solutions maintained
           analyses or reconciliations of quarterly Military Service and Defense agency workforce
           counts used to create the annual Refined Packard workforce count. The FY 2004 and
           prior Refined Packard workforce counts were unverifiable. For example, DMDC could
           not explain nor provide written documentation why there were significant increases and
           decreases for acquisition workforce personnel for the Military Services and Defense
           agencies from FY 1999 through FY 2004. DMDC also did not maintain documentation
           for review and correction of the acquisition workforce counts with the Military Services
           and Defense agencies. DMDC personnel relied upon input by Jefferson Solutions
           personnel to analyze the FY 2004 Refined Packard workforce count. Because Jefferson
           Solutions did not maintain detailed records of yearly workforce count analyses, DMDC
           lacked sufficient audit trails for analyzing and reconciling quarterly Military Service and
           Defense agency workforce submissions.

           DMDC Acquisition Workforce Management Information Systems. The 2004
           “DMDC Profile” handbook listed two information systems used to support the annual
           acquisition workforce counting process. However, as of January 2006, neither
           management information system was fully operational or reliable. As a result, the
           DMDC lacked the management information system infrastructure to support its
           Acquisition Organization and Refined Packard workforce counts.

                  Defense Acquisition Workforce Improvement Act Management Information
           System. The Defense Acquisition Workforce Improvement Act Management
           Information System was a title given by DMDC for its use of four defense personnel
           systems to extract acquisition workforce information to meet the Defense Acquisition
           Workforce Improvement Act and DoD Instruction 5000.55 reporting and training
           requirements. The Defense Acquisition Workforce Improvement Act Management
           Information System was not an integrated management information system, but rather a

4
    Knowledge management is a systematic approach to finding, understanding, and using knowledge to achieve
    organizational objectives. Many organizations are developing tools, systems, and awareness among employees
    that capturing and sharing knowledge is an important organizational practice. Knowledge management creates
    value when knowledge most important to the organization is shared and reused.



                                                        10
           “wrapper” for DMDC use of the four existing systems used to produce the Acquisition
           Organization and Refined Packard workforce counts. It could not provide a trace of
           actions performed by DMDC or the Military Services in producing or reconciling annual
           workforce counts. DMDC management stated the management information system was
           not meant to be an integrated system.

                    Defense Acquisition Workforce Management Information System. The
           Defense Acquisition Workforce Management Information System included a
           nonoperational Web-based Data Mart application to be used for DoD Instruction 5000.55
           workforce reporting purposes. The Data Mart application was to store, report, and
           summarize personnel data elements, position information, and training-related
           information supporting the requirements associated with the Defense Acquisition
           Workforce Improvement Act. If DMDC can make the Data Mart application operational,
           it will provide a means to support an auditable trace to the annual workforce counts. The
           management information system also included an operational “Outreach” application to
           allow the Office of the Secretary of Defense and Defense Acquisition University users to
           create, tailor, and use a list of DoD Acquisition Workforce e-mail addresses for
           educational and informational purposes. The Outreach application does not support
           Acquisition Organization and Refined Packard workforce counts.

           Use of Contracted Acquisition Workforce Support Services. Neither Acquisition
           Organization nor the Refined Packard workforce counts included or reported contractor
           full-time equivalents5 (contractor equivalents) used to support acquisition activities. The
           Military Services and DoD agencies are supplementing acquisition workforce shortfalls
           with contracted acquisition workforce personnel including procurement, engineering,
           program management, and supply support. Although DoD is not required to report the
           number of contractor equivalents, omitting contractors from the workforce count results
           in the invisibility of a large part of the true acquisition workforce. Table 4 shows the
           number and percentage of contractor equivalents at six DoD locations visited.

           Contracted acquisition workforces are not required to meet Defense Acquisition
           Workforce Improvement Act training and certification requirements. In some cases
           contracted personnel may be integrated into the Government acquisition workforce
           structure performing the same duties as the Government personnel.

           Reasons for Use of Contracted Acquisition Support. According to focus group6
           interviews conducted as a part of the audit at the six acquisition workforce locations,
           increased use of contracted acquisition support occurred because of increased workload
           coupled with past reductions of acquisition workforce personnel. Focus group comments
           also indicated that prioritizing acquisition and contracting job responsibilities led to the
           identification of severable functions that could be contracted out. Contracted acquisition
           support personnel were used to meet these priority skill sets. The acquisition workforce
           shortfalls were prevalent across several acquisition career fields including program
           management, quality assurance/engineering, and contracting.



5
    Per the DoD A-76 Costing Manual of March 14, 2001, a civilian full-time equivalent position is generally
    considered equal to 1,776 hours of annual productive effort.
6
    Focus groups included program managers, quality assurance/engineers, and contracting personnel.



                                                          11
    Table 4. Acquisition Workforce Contractor Equivalents for Locations Visited
Location             DoD              DoD            Contractor         Total            Contractor
Visited            Civilians         Military        Equivalents      Government         Percentage
                                                                      Acquisition       of Combined
                                                                      Workforce +        Acquisition
                                                                      Contractor         Workforce
                                                                      Equivalents

Army
Acquisition
Support               85                15                22               122           18 percent
Center

Naval Sea                                               Not          Not          Not
Systems             14,040             453         Determinable* Determinable Determinable
Command

Air Force
Aeronautica
l Systems            2,265             797              1,133             4,195          27 percent
Center

Air Force
Space and
Missile               514              632              2,053             3,199          64 percent
Systems
Center

Defense
Supply
Center                712               0                133               845           16 percent
Columbus

Defense
Supply
Center                798               0                250              1,048          24 percent
Richmond
*The Naval Sea Systems Command could not provide data on the number of contractor equivalents.



            Program Management. Program managers from the focus groups indicated
     program offices heavily rely on contracted support personnel because their offices are not
     authorized or do not have the personnel resources to hire additional Government
     personnel to meet current workload requirements. The Government lacked the ability to
     compete with private industry for experienced acquisition workforce positions in certain
     metropolitan regions, including Washington, D.C.; Los Angeles; and Boston. For
     example, Air Force Personnel at the Space and Missile Systems Center in Los Angeles,


                                                  12
           California, noted that Federally Funded Research and Development Centers and
           contracted system engineering and technical assistance support are being used in “hard-
           to-compete” job locations. Other comments noted regional Government personnel hiring
           freezes caused by budget restrictions as a primary restriction.

                   Quality Assurance/Engineering. Quality assurance and engineering personnel
           from the focus groups indicated that quality assurance workforce reductions created
           increased workload requirements for engineering personnel. For example, several sites
           noted that system safety engineers (who concentrate on system failures and risk
           management operations) have been significantly reduced from the acquisition workforce,
           while transferring the additional workload and responsibilities to remaining Government
           engineering personnel. Government personnel at the Naval Sea Systems Command, the
           Air Force Aeronautical Systems Center, and the Space and Missile Systems Center noted
           the quality assurance function was being performed by engineers. Personnel stated that
           the lack of Government resources tends to increase program delivery date noncompliance
           issues because the Government is not able to identify and fix system failures prior to
           delivery.

                   Contracting. Both Government contracting workforce and contracting managers
           noted that contracting personnel have experienced increased workload requirements
           because of post-9/11 procurement demands. The Government contracting workforce and
           contracting mangers also stated deployments of contracting personnel to overseas
           locations are increasing and that deployed personnel positions7 are not being backfilled,
           causing shortages of Government personnel and greatly increasing workloads of
           warranted contracting officers. Contracting personnel at all locations visited indicated
           contract close-out procedures have been generally outsourced as contracted acquisition
           support services. Contracting managers generally noted that contract close-out was
           considered one area where Government contracted for support services to compensate for
           Government acquisition personnel shortages.


Effect of Potential Inaccurate Acquisition Workforce Count
           DoD acquisition workforce planning risks could increase because annual Refined
           Packard workforce support and expenditures may be based on unreliable data. A lack of
           standard operating procedures for workforce counts and requirements have created
           conditions that may lead to a lack of consistency and comparability of acquisition
           workforce data throughout recent years including FY 2004. A lack of corporate
           knowledge, including prior analyses and reconciliations of quarterly Military Service and
           Fourth Estate workforce counts may contribute to a lack of understanding. DoD annual
           reporting to Congress should provide more specific information about Acquisition
           Organization and Refined Packard workforce count changes. Information provided
           should explain work force deletions, newly created positions, and shifts of personnel
           from non-Refined Packard workforce to Refined Packard workforce positions, as well as
           shifts between different Refined Packard workforce position categories.



7
    Deployments included transfer of both Government civilian and military personnel to forward locations, as well as
    Military Reserve/National Guard call-ups of Government civilians to active duty.



                                                          13
    Six acquisition offices reviewed reported contractors comprising 16 to 64 percent of the
    combined Government/contractor acquisition workforce. Contracted acquisition
    workforce equivalents are not required to meet Defense Acquisition Workforce
    Improvement Act training and certification requirements, as are their DoD civilian and
    military counterparts. As a result, the need to track the number of contractor equivalents
    has increased. Thus, DoD should revise Instruction 5000.55 to estimate and track
    contractor equivalents that support the DoD acquisition workforce, and include the
    estimates as supplementary DoD reporting data to Congress. If contractor equivalent
    estimates are not included, the total efforts and needs of the Refined Packard workload
    will not be recognized.


Management Comments on the Finding and Audit Response
    Management Comments on DMDC Role in Acquisition Workforce Counts. The
    Director, DMDC stated the report inaccurately reflected the DMDC role in providing
    refined Packard counts. The Director stated the DMDC primarily receives and compiles
    data from the Military Services and Office of Secretary of Defense agencies, which are
    allowed to modify workforce counts without justification after an initial DMDC analysis.
    The Director stated that DMDC was not in a position to provide reconciliations on
    workforce counts or provide written documentation on significant increases or decreases
    in DoD acquisition workforce personnel. The Director, DMDC deferred to the role and
    responsibility of the Director, Defense Procurement and Acquisition Policy in developing
    and implementing standard procedures and guidance.

    Audit Response. DoD Instruction 5000.55, “Reporting Management Information on
    DoD Military and Civilian Acquisition Personnel and Positions,” November 1, 1991,
    designates DMDC to serve as custodian of all automated records collected and to provide
    data quality control, inquiry capabilities, and administrative and computer support. A
    May 13, 1999, Under Secretary of Defense (AT&L) policy memorandum, emphasizes
    that the DMDC database is the official repository for acquisition workforce personnel
    counts. We agree that the Director, Defense Procurement and Acquisition Policy is
    responsible for developing and implementing acquisition workforce standard procedures
    and guidance; however, we believe that the existing DoD policy requires DMDC to
    provide accurate and reliable acquisition workforce information. Without DMDC
    measures to ensure the accuracy of periodic workforce submissions, DMDC role would
    be limited to compiling and maintaining unreliable data.


Recommendations, Management Comments, and Audit Response
    Renumbered and Redirected Recommendations. As a result of Office of
    USD(AT&L) comments we renumbered draft report Recommendation A.1.b.(2) as
    Recommendation A.3. in the final report and redirected it to the Under Secretary of
    Defense for Personnel and Readiness to comment in coordination with the USD(AT&L).
    We renumbered draft report Recommendation A.1.b(1) as final report
    Recommendation A.1.b.




                                            14
A.1. We recommend that the Director, Defense Procurement and Acquisition
Policy:

      a. Develop and implement written standard operating procedures and
guidance for counting the acquisition workforce to include:

             (1) a definition of the acquisition workforce count that includes the
Acquisition Organization Count and the Refined Packard workforce count.

             (2) a definition of the methodologies and procedures used to perform
periodic workforce counts derived from Military Services and Fourth Estate
databases.

            (3) requirements to maintain and support acquisition workforce count
documentation as required by DoD Instruction 5000.55.

       b. Revise DoD Instruction 5000.55 to update the information requirements
for automated data files to ensure consistent acquisition workforce information
format and reporting from the DoD components.

Management Comments. The Director, Human Capital Initiatives, Office of the
USD(AT&L), responding for the Director, Defense Procurement and Acquisition Policy,
concurred with Recommendations A.1.a. and A.1.b., stating that he directed a complete
update of the AT&L workforce management information requirements, which included a
review and update of the workforce count definition. The Director stated that
USD(AT&L) will ensure supporting workforce count methodology and procedures are in
place and that requirements are in place to ensure maintenance and support of workforce
count documentation. The Director also stated that standard policy, guidance, and
process updates are being implemented with a new count methodology to facilitate
workforce analysis and human capital strategic planning.

Audit Response. Although the Director, Human Capital Initiatives, concurred with
Recommendation A.1., the comments did not address the time line for implementation of
the written standard operating procedures and guidance and revision to the DoD
Instruction. In separate follow-up correspondence the Office of the USD(AT&L) noted
that the implementation would be by August 31, 2006.

A.2. We recommend that the Director, Defense Manpower Data Center develop a
knowledge management program to maintain corporate knowledge of Defense
Manpower Data Center information systems and processes.

Management Comments. The Director, DMDC concurred with the recommendation,
stating that DMDC did not fully pass along knowledge related to the methods used in
attempting to identify personnel in the acquisition workforce. The Director stated that
the DMDC has taken steps to rectify the situation.

Audit Response. Although the Director, DMDC concurred with Recommendation A.2.,
the comments were not fully responsive because they did not address the development of
a knowledge management program or identify specific steps taken to pass along
knowledge and did not provide a timetable to implement such a program. We request



                                       15
further comments from the Director, DMDC regarding implementation of
Recommendation A.2.

USD(AT&L) Comments. Although not required to comment, the Director, Human
Capital Initiatives, Office of the USD(AT&L), commented that his office would work
closely with the Under Secretary of Defense for Personnel and Readiness to clarify
requirements, policy, and processes that impact the management information services
provided through DMDC.

A.3. We recommend that the Under Secretary of Defense for Personnel and
Readiness in coordination with the Office of the Under Secretary of Defense for
Acquisition, Technology, and Logistics revise DoD Instruction 5000.55 to estimate
contractor equivalents, to the best extent estimable, who support the DoD
acquisition workforce, and include such estimates as supplementary acquisition
workforce reporting data in annual DoD reporting to Congress.

USD(AT&L) Comments. The Director, Human Capital Initiatives, Office of the
USD(AT&L), commenting to the draft report recommendation directed to the Director,
Defense Procurement and Acquisition Policy, stated the recommendation came under the
purview of the office of the Under Secretary of Defense for Personnel and Readiness
because that office had broader authority to establish the requirement and direct
collection of DoD contractor personnel data.

Audit Response. As a result of Office of USD(AT&L) comments, we have renumbered
and redirected the recommendation in the final report to the Under Secretary of Defense
for Personnel and Readiness to respond in coordination with the Office of the
USD(AT&L).

Air Force Comments. Although not required to comment, the Military Deputy, Office
of the Assistant Secretary of the Air Force (Acquisition) stated there is currently no
requirement for DoD to report acquisition workforce contractor equivalents and
questioned the relevancy of counting contractors.




                                       16
           B. Contracted Support Services for the
              Acquisition, Technology, and
              Logistics Workforce
           The Defense Contracting Command-Washington (DCC-W) did not
           properly negotiate or administer support service contract
           DASW01-03-F-0393 to Jefferson Solutions. In addition, the contracting
           officer’s representative (COR) approved Jefferson Solutions’ monthly
           invoices without requesting written support for services performed, hours
           expended, or products provided. The contract negotiation and
           administration problems occurred because:

                  •   DCC-W did not maintain support for the independent
                      Government cost estimate (IGCE) determination of labor
                      hours, labor rates, and direct and indirect costs, which appeared
                      to be based on unverified contractor proposal data;

                  •   DCC-W did not require signatures on or dating of the IGCE
                      and did not maintain letters of delegation to the COR;

                  •   DoD contracting officials did not place adequate emphasis on
                      contract administration and surveillance; and

                  •   DCC-W did not require written monthly progress reports.

           As a result, the Government was not assured that it negotiated fair and
           reasonable prices with Jefferson Solutions, that work performed by
           Jefferson Solutions in identifying and reporting the Refined Packard
           workforce count was done properly for the time and materials expended,
           nor that Government resources were used economically.


Refined Packard Workforce Count Support Contracts
    DCC-W, on behalf of the Office of the USD(AT&L), awarded the DoD-wide
    Refined Packard workforce identification contracts. Since 1997, DCC-W has
    awarded five contracts to Jefferson Solutions to support DoD acquisition
    workforce issues. DCC-W and Jefferson Solutions had no records relating to the
    initial contract. The subsequent four contracts are valued at $2.447 million. The
    following table summarizes the last four contracts awarded.




                                        17
                     Table 5. Contract Actions Reviewed
    Contract No.                  Award Date                Contract Value
 DASW01-99-F-1028                     March 15, 1999                 $451,194
 DASW01-01-F-0349                  December 18, 2000                 $413,906
 DASW01-02-F-0538                    February 1, 2002                $432,679
 DASW01-03-F-0393                      March 1, 2003               $1,149,259
  Total                                                            $2,447,038


Prior Contracts. On March 15, 1999, DCC-W awarded a firm-fixed-price
contract (DASW01-99-F-1028) for a period of 10 months to Jefferson Solutions.
Modification P00001 extended the period of performance to January 14, 2001, for
the continued implementation of the Acquisition and Technology workforce
identification. Jefferson Solutions was to provide to the Office of the
USD(AT&L) both consulting expertise and advice for further refinement of the
Refined Packard methodology. The total cost of the contract was $451,194. The
contracting officer could not locate a 1997 contract awarded to Jefferson
Solutions for reporting the acquisition workforce and stated the contract was sent
to a warehouse and may have been destroyed.

On December 18, 2000, DCC-W awarded a firm-fixed-price contract
(DASW01-01-F-0349) for a period of 12 months to Jefferson Solutions to provide
consulting expertise and advice relevant to further refinement of the Refined
Packard algorithm. Modification P00001 extended the period of performance to
January 31, 2002. The contract was not competitively awarded and was follow-
on work to contract DASW01-99-F-1028. Total cost of the contract was
$413,906.

On February 1, 2002, DCC-W awarded a firm-fixed-price contract
(DASW01-02-F-0538) for a period of 12 months to Jefferson Solutions to provide
for the full identification and quantification of the DoD key acquisition workforce
based on the Refined Packard methodology. Modification P00001 extended the
contract one month to February 28, 2003. The total cost of the contract was
$432,679. The contract was not competitively awarded and was follow-on work
to contract DASW01-01-F-0349. A sole-source justification stated that Jefferson
Solutions was the only contractor that could continue the effort in a timely and
cost-effective fashion. The sole-source justification was not signed or dated.

Current Contract. On March 1, 2003, DCC-W awarded a firm-fixed-price
contract (DASW01-03-F-0393) for a base period of 11 months and up to 3 option
years to Jefferson Solutions to provide for the full identification and
quantification of the DoD-wide acquisition workforce, based on the methodology
refined by the December 1997 DoD Workforce Identification Working Group.
The base year was awarded for $266,699. As of March 14, 2005 (modification
P00006), the total cost of the contract was $1,149,259.




                                    18
Government Oversight of Refined Packard Workforce Count
  Contractor
    Based on a review of support service contract DASW01-03-F-0393:

           •   DCC-W did not properly negotiate or administer support service
               contract DASW01-03-F-0393 to Jefferson Solutions. A DCC-W
               award to Jefferson Solutions was based on an unsupported IGCE. The
               DCC-W contracting officer should have performed a price analysis to
               ensure the Government received a fair and reasonable price. The
               contractor was not required to provide written monthly progress
               reporting.

           •   The COR approved 28 Jefferson Solutions monthly invoices for
               contract DASW01-03-F-0393 from March 2003 through June 2005
               without requesting written support for services performed, hours
               expended, or products provided. Each of the contractor invoices stated
               only “Provide for the full identification and quantification of the DoD-
               wide Acquisition Technology and Logistics (AT&L) Workforce,
               based on the methodology refined by the December 1997 DoD
               Workforce Identification Working Group.” None of the monthly
               invoices provided any further information on the monthly activities
               performed to support payment.


Contract Negotiation and Administration
    The contract negotiation and administration problems occurred because DCC-W
    did not maintain support for the IGCE determination of estimated amounts and
    did not require signatures on or dating of the IGCE. DCC-W did not maintain
    letters of delegation to the COR and did not place adequate emphasis on contract
    administration and surveillance of Jefferson Solutions products.
    Independent Government Cost Estimate. Federal Acquisition Regulation
    Subparts 15.404-1(b)(2) and 15.404-1(c)(2) note the Government may use various
    cost or price analysis techniques to determine a fair and reasonable price. Such
    techniques include a comparison of costs proposed by the offeror for individual
    cost elements with an independently prepared Government estimate of the costs.
    DCC-W could not support its estimated amounts for labor hours, labor rates, and
    direct and indirect costs for contract DASW01-03-F-0393. The IGCE consisted
    of a list of labor categories, rates, and hours. DCC-W maintained no explanation
    of the sources or analyses pertaining to the estimated cost information. The IGCE
    appeared to be based on data from the contractor proposal and not from a price
    analysis completed by the Government to ensure the Government received a fair
    and reasonable price. The IGCE total estimated cost and fee was $266,860. The
    total firm-fixed price for the base year for the contractor proposal was $266,699.
    The difference between the IGCE and the contractor price proposal was only
    $161. In addition, the IGCE did not include an estimate for the three option
    periods in the proposal. The proposed first two option periods and prices were


                                        19
           included in the negotiated contract without change. Further, the contracting
           officer stated that DCC-W policy did not require Government signatures on and
           dating of IGCEs or estimates of contractor-proposed option periods until June
           2005.

           Fair and Reasonable Price. The Memorandum of Negotiations for contract
           DASW01-03-F-0393 notes that a request for quotes was submitted to
           10 contractors, using the GSA Advantage E-Buy Web site. Jefferson Solutions
           was the only contractor that submitted a proposal. The memorandum stated that
           the COR reviewed the Jefferson Solutions price proposal and determined the costs
           were realistic for the work to be performed when compared with previous
           contracts for the same type of work. All previous contracts were awarded to and
           performed by Jefferson Solutions. DCC-W contracting officials should have
           performed a price analysis to ensure the Government received a fair and
           reasonable price.

           The memorandum also noted that because the award was based on full and open
           competition, a detailed price analysis was not performed in accordance with the
           requirements of Federal Acquisition Regulation Subpart 15.804-3(b). The
           memorandum’s reference to Subpart 15.804-3(b) is erroneous because the subpart
           did not exist at the time of the February 3, 2003, solicitation.8 The memorandum
           did not reference Federal Acquisition Regulation Subpart 15.404-1(a)(2)
           requirement that a price analysis shall be used when cost or pricing data are not
           required. Had the contracting officer required a price analysis, he could have
           demonstrated whether the proposed price was reasonable in comparison with
           current or recent prices for the same or similar items.

           COR Letter of Delegation. The Defense Federal Acquisition Regulation
           Supplement Subpart 201.602-2 and the DCC-W “Contracting Officer’s
           Representative (COR) Guide,” (COR Guide) April 15, 2005, note the
           appointment of a COR must be made by the contracting officer in writing.
           Subpart 201.602-2 and the DCC-W COR Guide additionally require that the
           designation specify the extent of the COR authority to act on behalf of the
           contracting officer, identify the limitations on the COR authority, specify the
           period covered by the designation, state the authority is not redelegable, and state
           that the COR may be personally liable for unauthorized acts.

           While the Memorandum of Negotiations for contract DASW01-03-F-0393
           referred to COR actions, the DCC-W contracting officer did not designate a COR
           in writing as required by the Defense Federal Acquisition Regulation Supplement.
           The contracting officer stated that DCC-W does not use the term COR for GSA
           Federal Supply Schedule contracts; rather, it uses the term “point of contact” to
           refer to the COR function. DASW01-03-F-0393 and prior DCC-W contracts with
           Jefferson Solutions designated points of contact in the offices of the USD(AT&L)
           or the Director, Defense Procurement and Policy. However, the designations did
           not meet the requirements of Defense Federal Acquisition Regulation Supplement
           Subpart 201.602-2 and the DCC-W COR Guide because they did not specify the


8
    Review of prior Federal Acquisition Regulation revisions indicated that no Federal Acquisition
    Regulation 15.804 reference existed past July 1997.



                                                      20
   period covered by the designation, the extent or limitations of the COR authority,
   or state the authority was not redelegable.

   Contract Administration and Surveillance and Contractor Progress
   Reporting. The DCC-W COR Guide noted the COR was required to maintain
   effective surveillance of the contract and document the surveillance performed.
   Surveillance documentation includes progress reports submitted by the contractor.
   COR/point of contact surveillance files were limited and consisted of a copy of
   the contract, e-mails, contractor invoices, and COR/point of contact approvals.
   COR/point of contact surveillance consisted primarily of a review of contractor
   invoices, e-mails, and verbal progress reports over the telephone with the
   contractor. The contracting officer could not explain why the contract did not
   require written monthly progress reports, and noted the COR/point of contact
   could not properly monitor contractor performance to determine whether work
   was properly performed and progress was being made without written monthly
   progress reports.

   The Office of the Defense Procurement and Policy COR/point of contact noted
   after our review of their contracting files that the contractor should be required to
   provide written monthly progress reports. On October 21, 2005, the contracting
   officer issued modification P00007 to contract DASW01-03-F-0393 to require the
   contractor to provide USD(AT&L) with written monthly progress reports.


Summary
   A DCC-W award to Jefferson Solutions was justified through an unsigned,
   undated, and unsupported IGCE. The Government was not assured that fair and
   reasonable prices were negotiated because the IGCE lacked sufficient detail for
   supporting labor rates, labor categories, labor hours, and direct as well as indirect
   costs, and no one performed a price analysis. DCC-W contracting officials should
   have performed a price analysis to ensure the Government received a fair and
   reasonable price. The contracting officer took corrective action to require the
   contractor to provide written monthly progress reports.




                                        21
Recommendation and Management Comments
    B.1. We recommend that the Commander, Defense Contracting Command-
    Washington require that acquisition workforce count contracts supporting
    Office of Under Secretary of Defense for Acquisition, Technology, and
    Logistics components include written contractor monthly progress reports to
    the contracting officer and points of contact or contracting officer
    representatives.

    Army Comments. The Director, Army Contracting Agency, responding for the
    Director, Defense Contracting Command-Washington, concurred with the
    recommendation and noted that any future contract requirements for these or
    similar services will include the proper Government and contractor reporting
    requirements.

    Office Under Secretary Defense for Acquisition, Technology & Logistics
    Comments. Although not required to comment, the Director, Human Capital
    Initiatives, Office of the Under Secretary of Defense for Acquisition, Technology
    and Logistics, commented that the final option for the workforce count support
    contract was not exercised and that a new acquisition is planned.




                                       22
Appendix A. Scope and Methodology
   We performed this audit from May 2005 through January 2006 in accordance
   with generally accepted government auditing standards. The audit analyzed
   existing Federal, DoD, and Service (including DLA) acquisition workforce policy
   and guidance, assessed Service and DLA compliance with acquisition workforce
   guidance regarding workforce counts, and evaluated management controls over
   the acquisition workforce counting process. This analysis included determining
   the processes used by the Office of the Secretary of Defense to count and report
   the acquisition workforce and determining the extent of support for counts made
   through the Refined Packard method. The audit did not determine the extent of
   support for workforce counts made through the Acquisition Organization method
   as those counts were derived directly from DoD civilian and military personnel
   databases. We reviewed documents from FY 1997 through FY 2005.

   In addition, the audit team held focus group discussions with management and
   nonmanagement acquisition workforce personnel, including program
   management, contracting, quality assurance, and engineering work groups, to
   identify areas of concern to the workforce and prepare a potential DoD-wide
   questionnaire on acquisition workforce issues for use in later audits.

   The audit team conducted site visits to Office of the Secretary of Defense
   components including the Office of the USD(AT&L) and its Defense
   Procurement and Acquisition Policy and Defense Acquisition University
   components, the Office of the Under Secretary of Defense for Personnel and
   Readiness and its DMDC component, and support contractor Jefferson Solutions.
   The audit also performed site visits or met with personnel from the Army
   Acquisition Support Center; the Army Contracting Agency; the Office of the
   Assistant Secretary of the Navy for Research, Development, and Acquisition; the
   Naval Sea Systems Command; the Office of the Assistant Secretary of the Air
   Force for Acquisition; the Air Force Materiel Command; the Aeronautical
   Systems Center; the Air Force Space and Missile Systems Center; DLA
   Headquarters; Defense Supply Center-Columbus; and Defense Supply Center-
   Richmond. We determined the use and extent of contracted support services at
   acquisition workforce field organizations and locations visited.

   Use of Computer-Processed Data. We relied on data received from the Military
   Services, DMDC, and DLA information systems for the FY 2004 Refined
   Packard workforce counts. We did not test those information systems. Issues that
   came to our attention are included in Finding A.

   Government Accountability Office High-Risk Area. The Government
   Accountability Office has identified several high-risk areas in DoD. This report
   provides coverage of the Strategic Human Capital Management and the DoD
   Approach to Business Transformation─Weapon Systems Acquisition high-risk
   areas.




                                       23
Appendix B. Prior Coverage
      During the last 5 years, the Government Accountability Office (GAO) and the
      Department of Defense Inspector General (DoD IG) have issued seven reports
      discussing the DoD acquisition workforce. Unrestricted GAO reports can be
      accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG reports
      can be accessed at http://www.dodig.mil/audit/reports.

GAO
      GAO Report No. GAO-05-233, “Federal Acquisition: Progress in Implementing
      the Services Acquisition Reform Act of 2003,” February 2005

      GAO Report No. GAO-04-83, “Human Capital: Implementing Pay for
      Performance at Selected Personnel Demonstration Projects,” January 2004

      GAO Report No. GAO-03-443, “Federal Procurement: Spending and Workforce
      Trends,” April 2003

      GAO Report No. GAO-03-55, “Acquisition Workforce: Status of Agency Efforts
      to Address Future Needs,” December 2002

      GAO Report No. GAO-02-737, “Acquisition Workforce: Agencies Need to Better
      Define and Track the Training of Their Employees,” July 2002

      GAO Report No. GAO-02-630, “Acquisition Workforce: Department of
      Defense’s Plans to Address Workforce Size and Structure Challenges,” April
      2002

DoD IG
      DoD IG Report No. D-2001-129, “Contracting Officer Determinations of Price
      Reasonableness When Cost or Pricing Data Were Not Obtained,” May 30, 2001




                                         24
Appendix C. DoD Acquisition Organizations List
       DoD Instruction 5000.55, November 1, 1991, defines an acquisition organization
       as one of 22 listed organizations and any successor organization of these
       commands, including subordinate elements, whose mission includes planning,
       managing, and executing acquisition programs. The list is used as the basis for
       the Acquisition Organization workforce counting method and is shown below:

Office of the Secretary of Defense
Office of the Under Secretary of Defense for Acquisition, Technology, and Logistics

Department of the Army
Army Acquisition Executive
Army Materiel Command
Army Space and Missile Defense Command

Department of the Navy
Office of the Assistant Secretary of the Navy for Research, Development, and
  Acquisition
Naval Air Systems Command
Naval Sea Systems Command
Naval Supply Systems Command
Naval Facilities Engineering Command
Naval Space and Warfare Systems Command
Naval Strategic Systems Program Office
Office of Naval Research
Navy Program Executive Office/Direct Reporting Program Manager Organization
Marine Corps Systems Command

Department of the Air Force
Office of the Assistant Secretary of the Air Force for Acquisition
Air Force Materiel Command
Air Force Space and Missile Center
Air Force Program Executive Office

Combatant Command
U.S. Special Operations Command–Acquisition Center




                                            25
Other Defense Organizations
Defense Logistics Agency
Defense Contract Management Agency
Missile Defense Agency




                                     26
Appendix D. Military Services and Defense
            Logistics Agency Acquisition
            Workforce Counting Processes
   The FY 2004 and prior Refined Packard workforce counts were unverifiable and
   may not accurately reflect the true DoD acquisition workforce. Guidance and
   processes used by the services to count and report the acquisition workforce vary
   greatly.


   Army Counting Process. The Military Deputy to the Army’s Acquisition
   Executive serves as the Army DACM. The Director, Army Acquisition Support
   Center serves as the Army Deputy Director Acquisition Career Management.
   The Army DACM reports quarterly a Refined Packard acquisition workforce
   count to DMDC as required by DoD Instruction 5000.55. The Army’s Career
   Acquisition Personnel and Position Management Information System (Army
   information system) is the Army database system for Army’s acquisition
   workforce and is used to report data to DMDC. The Army Acquisition Support
   Center uses the Army information system for acquisition workforce training,
   personnel history, and qualifications. Army personnel noted that DMDC can also
   obtain Army-related acquisition workforce information directly from the Defense
   Civilian Personnel Data System. The Army’s information system comprises
   acquisition workforce data from multiple sources including the Defense Civilian
   Personnel Data System, the Total Officer Management Information System, and
   manually counted data of enlisted personnel.

          Revisions to Army Workforce Counting Methodology. Army
   Acquisition Support Center officials stated that while the Refined Packard
   workforce count provides a good definition of the acquisition workforce, the
   Army may expand its acquisition workforce count by at least 12,000 personnel
   (25 percent) to include facilities engineering personnel at three major Army
   commands, including the Corps of Engineers-Civil Works, the Installation
   Management Agency, and Office of the Assistant Chief of Staff for Installation
   Management. Army Acquisition Support Center personnel stated the expansion
   would begin with the FY 2006 Refined Packard workforce count as a result of
   personnel description changes made during FY 2005.

           Army Workforce Projection Methods. The Office of the Assistant
   Secretary of the Army for Acquisition, Logistics, and Technology is responsible
   for sizing the Army acquisition workforce. The Army uses a Forecast Framework
   Model to assess the current workforce count, project future workforce size, and
   conduct a “gap analysis” comparing current demographics with the desired
   demographics and flagging significant differences. The acquisition workforce
   projections are analyzed by the Army Acquisition, Logistics, and Technology
   personnel to identify any significant growth in accession requirements. The
   analysis identifies Army acquisition workforce reductions due to retirements or
   migrations or where a new or increased workload requirement has been projected.
   The Army also considers industry and academia information describing emerging



                                       27
technical skills and acquisition community best practices in strategic planning
recommendations.

Navy Counting Process. The Department of Navy DACM has the primary
responsibility of developing and implementing policies and procedures for the
Navy Refined Packard workforce count and the Navy AT&L Workforce
Education, Training, and Career Development Program on behalf of the Assistant
Secretary of the Navy for Research, Development, and Acquisition, who serves as
the Navy Service Acquisition Executive. The Navy DACM is also responsible
for establishing and maintaining a management information system to support
workforce management, compliance monitoring, tracking, and reporting for the
Department of the Navy Acquisition Workforce.

        Navy Workforce Counting Systems. The Navy DACM relies on civilian
and military acquisition personnel and position data systems that are updated
monthly by Department of the Navy command levels. The Navy DACM does
not use the Refined Packard method to assemble the workforce count. Instead,
the Navy DACM uses the Refined Packard methodology as a tool to assist the
components in identifying and assimilating positions into the acquisition
workforce. The Navy DACM uses a Navy computer program to pull coded
Department of the Navy acquisition workforce positions from the Defense
Civilian Personnel Data System, the Navy Total Force Manpower Management
System, the Navy Officer Personnel Information System, and the Marine Corps
Acquisition Workforce System of Management. The acquisition positions within
the personnel and position data systems are coded by management level personnel
at the Department of Navy commands. The Navy DACM process removes all
nonacquisition personnel, including some personnel considered as Refined
Packard Method Category One. However, the Navy DACM stated that DMDC
and Jefferson Solutions revised the Navy DACM submission for the FY 2004
DoD-wide acquisition workforce count by adding back approximately
200 Category One personnel that had been eliminated by this Navy DACM
process.

        Navy Workforce Counting Criteria. Secretary of the Navy
Instruction 5300.36, “Department of the Navy Acquisition Workforce Program,”
May 31, 1995, and the Navy DACM, “Interim Guidance Department of the Navy
(DoN) Acquisition, Technology, and Logistics (AT&L) Workforce Education,
Training, and Career Development Program,” October 11, 2005, are supplied to
major commands as guidance for implementing acquisition workforce coding and
revised Defense Acquisition Workforce Improvement Act requirements. The
Navy DACM noted that the interim guidance is consistent with the revised DoD
Directive 5000.52 and should replace the same topics covered in Secretary of the
Navy Instruction 5300.36. The Navy DACM also stated that the Navy will
publish a revised Secretary of the Navy policy instruction and operating guidance
by July 2006, after the Office of the USD(AT&L) publishes a DoD operational
instruction and Web-based Desk Guide.

Neither the Secretary of the Navy Instruction nor the Navy interim guidance
includes procedures for the Navy DACM or component of the Department of the
Navy commands to verify the validity of coded acquisition workforce data. The
Navy DACM stated that its office did not maintain written standard operating


                                    28
        procedures for assembling the count or to verify the validity of coded workforce
        data made by the Department of the Navy commands. However, the Navy
        DACM noted that its office had requested the Naval Audit Service to validate the
        data through audit examination.

        Air Force Counting Process. The Air Force DACM leads the Acquisition
        Professional Development Program on behalf of the Service Acquisition
        Executive. The Air Force DACM is responsible for the Air Force acquisition
        workforce count submitted to DMDC.

                Air Force Workforce Counting Systems. The Air Force DACM staff
        performs an acquisition workforce count by retrieving data on acquisition coded
        positions from four Air Force systems: a DoD Instruction 5000.55 file, an
        Acquisition Career Management System, the Air Force Personnel Data System,∗
        and the DMDC Refined Packard workforce count. The Air Force DACM staff
        includes in the Air Force acquisition workforce all personnel whose social
        security numbers are in at least three of the four systems or if they were in both
        the Acquisition Career Management System and the Air Force Personnel Data
        System. The Air Force DACM staff submits information to DMDC to allow
        DMDC to make an assessment of the Air Force acquisition workforce count.
        DMDC sends results back to the Air Force DACM staff for review and
        correction. The Air Force DACM staff sends corrections back to DMDC in a
        spreadsheet format.

                Air Force Workforce Counting Criteria. An undated Web-based Air
        Force acquisition guidance implements Air Force Major Command coding of
        acquisition positions in the manpower and data personnel systems. The Air Force
        coding guidance notes that when job duties are predominantly acquisition-related,
        then the position falls under the requirements of the Air Force’s Acquisition
        Professional Development Program. The Air Force DACM staff noted there were
        data entry and coding problems with personnel entering the data at Air Force
        bases. The Air Force DACM staff was in the process of writing new policies and
        procedures for coding and counting the acquisition workforce. The new policies
        and procedures were expected to be completed for the FY 2006 end-of-year
        acquisition workforce count.

        DLA Counting Process. The DLA Customer Support Office in Columbus, Ohio,
        submits quarterly DLA Acquisition Workforce count data directly to the Defense
        Manpower Data Center. DLA has a Component Acquisition Executive
        responsible for all acquisition functions within the agency. The Component
        Acquisition Executive serves on the DLA Acquisition Career Program Board,
        which periodically convenes to discuss and make decisions on acquisition
        workforce policy issues affecting DLA. However, DLA is not required by DoD
        guidance to maintain a DACM to assist in DLA acquisition workforce training,
        education, and career development. The Defense Acquisition University’s
        Defense Agency Workforce Support Office performs DACM functions in support
        of the Defense agencies.

* The Air Force Personnel Data System includes data from the DoD Military Personnel Data System and
  the Defense Civilian Personnel Data System




                                                 29
       DLA Workforce Counting Systems. The Customer Support Office
produces quarterly acquisition workforce counts through extraction of DLA
Acquisition Personnel File records from the Defense Civilian Personnel Data
System and use of DLA Acquisition Position Files. The Acquisition Personnel
File and Acquisition Position File records are periodically updated by the DLA
Customer Support Offices in Columbus, Ohio, and New Cumberland,
Pennsylvania. DMDC performs a match between the Acquisition Personnel File
records and Acquisition Position File records; the results of that match become
the DLA acquisition workforce count.

In FY 2004, the Customer Support Office also provided DMDC the acquisition
workforce count data for the Defense Contract Management Agency.
Compilation of the Defense Contract Management Agency acquisition workforce
count was transferred to the Department of the Army in April 2005. Annually,
Jefferson Solutions asks the DLA Headquarters Human Resource Policy and
Information Office to review and comment on the Refined Packard workforce
count for that year. For the FY 2004 count, DLA did not provide comments to
Jefferson Solutions.

        DLA Workforce Counting Criteria. DLA uses the DoD
Instruction 5000.55 as guidance and does not maintain supplementary criteria
regarding maintaining and reporting acquisition workforce data. Once a planned
revised DoD instruction is issued, DLA personnel stated that the agency will
review and determine if any supplementary internal guidance is necessary. The
Customer Support Office does not maintain standard operating procedures but
does maintain standard reporting queries and schedules for the DLA acquisition
workforce count.




                                   30
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Defense Procurement and Acquisition Policy
   Director, Acquisition Resources and Analysis
Under Secretary of Defense for Personnel and Readiness
   Director, Defense Manpower Data Center
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Office of the Administrative Assistant to the Secretary of the Army
  Commander, Defense Contracting Command-Washington
Auditor General, U.S. Army Audit Agency

Department of the Navy
Naval Inspector General
Auditor General, Naval Audit Service

Department of the Air Force
Assistant Secretary of the Air Force for Financial Management and Comptroller
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organization
Director, Defense Logistics Agency




                                           31
Non-Defense Federal Organizations and Individuals
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Finance, and Accountability,
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform




                                        32
Under Secretary of Defense for Acquisition,
Technology, and Logistics Comments




                       33
34
     Final Report
      Reference




     Renumbered
     A.3
     Redirected

     Renumbered
     A.3
     Redirected




35
Department of the Army Comments




                    36
Defense Manpower Data Center Comments




                    37
Department of the Air Force Comments




                     38
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Contract Management prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed
below.

Richard B. Jolliffe
Kimberley A. Caprio
Benjamin A. Mehlman
Robert M. Sacks
Linh Truong
Takia A. Matthews
Daniel L. Messner
Cecil B. Tucker
Loretta L. Loughner
Meredith Johnson
Jillisa Milner
